No.

3Jn {[be

$Upreme QCourt of tbe mlniteb ~tates
JESSICA VENNIE,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I, Jonathan C. Su, counsel of record for Petitioner Jessica Vennie, and a member
of the Bar of this Court, hereby certify that on the 21st day of January, 2020, I caused
to be served three (3) copies of the Petition for a Writ of Certiorari in the abovereferenced case by first-class mail, postage prepaid, upon counsel as listed below:
Leo Joseph Wise
Office of the United States Attorney
36 South Charles Street
4th Floor
(410) 209-4909
leo.wise@usdoj.gov
Baltimore, MD 21201-0000

Counsel for Respondent

Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov
Counsel for United States
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to the above-listed
counsel at the referenced email address.
I further certify that all parties required to be served have been served.

By~
Jona~

LATHAM & WATKINS LLP

555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
jonathan.su@lw.com
Counsel for Petitioner

2

